Message From the Inspector General

    I am pleased to present the results and accomplishments of the Office of Inspector                  M HE           ENT OF T
                                                                                                      RT
General (OIG) from April 1, 2005, through September 30, 2005. During this reporting
                                                                                                             I




                                                                                                         A




                                                                                                                                        N
                                                                                                       EP




                                                                                                                                        TE
                                                                                                 U.S. D
period, we concluded one of our most publicized investigations on the agreement for the




                                                                                                                                          RIO
                                                                                                                                            R
acquisition and donation of subsurface mineral rights between the U.S. Department of the
                                                                                                  �                                         �




                                                                                                                                          AL
                                                                                                  OF
                                                                                                       Ag
Interior (DOI) and the Collier Resources Company. We began our investigation in September




                                                                                                         en




                                                                                                                                        ER
                                                                                                    FI
                                                                                                             of




                                                                                                           ts
                                                                                                    E           P   osi




                                                                                                       C
                                                                                                      OF               tive




                                                                                                                                        N
                                                                                                             E              Ch   ange
                                                                                                          RG         INSP
                                                                                                                         E C TO
2003 after receiving allegations from a confidential source that the Collier Resources Company
took advantage of the politically charged situation surrounding drilling in the Florida Everglades and
“bluffed” DOI into executing an agreement to purchase the mineral interests for an inflated price. Ultimately, our
investigation helped prevent the agreement from being consummated, saving American taxpayers $120 million.

    We found that while the intentions behind the attempted acquisition – which spanned both the Clinton and
Bush administrations – appeared to be firmly grounded in a desire to protect the environmentally sensitive Ever-
glades from potential harm, the means by which these intentions were advanced were distressing. DOI lawyers
advanced the deal using an inappropriate appraisal process and ignored the objections of career employees who
knew the rules were not being followed. We found nothing to indicate that the mineral resources had any signifi-
cant value, and DOI may have even paid for those rights in an earlier deal with the Collier Resources Company.
Overall, the events surrounding this agreement represent a compartmentalized view of responsibility that has
haunted DOI in past land transactions, such as the San Rafael land exchange, which we reported on in our April
2004 Semiannual Report.

    We must commend DOI, however, for the significant changes it has made to the land appraisal program and
process. Following the issuance of our report concerning the San Rafael land exchange, the Secretary directed
consolidation of DOI’s real estate appraisal functions to ensure appraiser independence, accountability, high stan-
dards, appropriate training, and oversight of DOI appraisal functions. In addition, a Secretarial Order was issued
establishing policy on alternative methods of valuation for legislative land exchanges. We are confident that these
reforms, if strictly adhered to, will correct the problems we discovered in both of these investigations.

      In this Semiannual Report, I am also pleased to highlight our Office of Audits report on DOI’s management
of hazardous materials sites on its lands. We found serious deficiencies in DOI’s management of its hazardous
materials sites, risking public exposure to harmful contaminants and toxic substances. We were disturbed to find
that DOI is not able to identify how many contaminated sites are on its lands, and, of the sites DOI knows of,
it is not prioritizing which ones should be mitigated first. We attribute these deficiencies to (1) DOI’s failure to
provide guidance to the bureaus for identifying, tracking, and prioritizing contaminated sites and (2) DOI’s failure
to provide oversight for the management of hazardous materials site activities. DOI agreed with our recommen-
dations to improve the management of these sites, and we will be tracking implementation. We issued this report
jointly with the Environmental Protection Agency (EPA) – our audit partner on this endeavor.

    These significant accomplishments, along with the others highlighted in this report, represent our dedication
to not only detecting fraud, waste, abuse, and mismanagement within DOI, but also to assisting DOI in identifying
and implementing new and better ways of conducting business. Our commitment is to provide the highest quality
products and services at the best value to DOI and the American taxpayer. We look forward to working with the
Congress and the Secretary to promote excellence, accountability, and efficiency in DOI and, overall, improve the
accountability of government to the American public.




                                                                         Earl E. Devaney
                               Semiannual Report to the Congress - April 1, 2005 - General
                                                                         Inspector September 30, 2005                                           
                                                                                                                    Table of Contents



Table of Contents
Statistical Highlights.............................................................................................................................v

OIG Organization Chart......................................................................................................................vii

Mission and Top Management Challenges........................................................................................viii

Significant Audits, Evaluations,
Assessments, and Investigations
Department of the Interior....................................................................................................................1

Bureau of Indian Affairs....................................................................................................................... 7

Bureau of Land Management.............................................................................................................. 11

Bureau of Reclamation....................................................................................................................... 12

Minerals Management Service........................................................................................................... 13

National Park Service......................................................................................................................... 14

Office of Insular Affairs...................................................................................................................... 15

U.S. Fish and Wildlife Service............................................................................................................ 19

U.S. Geological Survey....................................................................................................................... 20

Summary of Significant Ongoing OIG Activities............................................................................... 21



Appendixes
1.	    Summary of Audit and Related Activities
       From April 1, 2005, Through September 30, 2005..................................................................... 23

2.	    Reports Issued During the 6-Month Period Ended
       September 30, 2005.................................................................................................................... 24

3.	    Monetary Impact of Audit Activities From April 1, 2005,
       Through September 30, 2005...................................................................................................... 29

4.	    Nonfederal Funding Included in Monetary Impact of Audit Activities
       During the 6-Month Period That Ended September 30, 2005.................................................... 30

5.	    Audit Resolution Activities......................................................................................................... 31

                                          Semiannual Report to the Congress - April 1, 2005 - September 30, 2005                                       iii
             Table of Contents


     6.	    Summary of Audit Reports Over 6 Months Old
            Pending Management Decisions at September 30, 2005............................................................ 34

     7.	    Summary of Internal Audit and Evaluation Reports Over 6 Months Old Pending
            Corrective Action at September 30, 2005................................................................................... 38

     8.	    Summary of Insular Area Reports With Open Recommendations Over 6 Months Old............. 43

     9.	    List of Reports Issued on Information Security.......................................................................... 45

     10.	 Cross References to the Inspector General Act........................................................................... 46

     General Information............................................................................................................................ 47




iv   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                                                                                                                                    Statistical Highlights




INVESTIGATIONS
STATISTICAL HIGHLIGHTS
April 1, 2005, Through September 30, 2005
Investigative Activities
Cases Closed................................................................................................................................. 177
New Cases Opened....................................................................................................................... 231
Hotline Complaints/Inquiries Received........................................................................................ 106
Criminal Investigative Activities
Indictments/Information................................................................................................................. 17
Convictions..................................................................................................................................... 23
Sentencings..................................................................................................................................... 18
       - Jail........................................................................................................................................................260 months
       - Probation .............................................................................................................................................624 months
       - Community Service..................................................................................................................................24 hours
       - Criminal Judgments/Restitutions..........................................................................................................$1,102,398

Criminal Matters Referred for Prosecution..................................................................................... 34
Criminal Matters Declined.............................................................................................................. 10
Civil Investigative Activities
Civil Referrals................................................................................................................................... 3
Administrative Investigative Activities
Personnel Actions............................................................................................................................ 37
Management Advisories.................................................................................................................. 10




                                              Semiannual Report to the Congress - April 1, 2005 - September 30, 2005                                                              
          Statistical Highlights



       AUDITS
       STATISTICAL HIGHLIGHTS
       April 1, 2005, Through September 30, 2005
       Audit Activities

       Reports Issued..............................................................................47

       Internal Audits............................................................................................................................ 30
       Contracts and Grant Audits........................................................................................................ 16
       Single Audit Quality Control Reviews........................................................................................ 1

       Audit Impacts
       Total Monetary Impacts................................................$15,730,734
       Questioned Costs (includes unsupported costs)........................................................... $4,359,254
       Recommendations That Funds Be Put to Better Use................................................. $10,674,950
       Lost or Potential Additional Revenues........................................................................... $696,530

       Internal Audit Recommendations Made.........................................86
       Internal Audit Recommendations Resolved...................................27




vi   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                                                                                                                    OIG Organization Chart



                             OIG Organization Chart

                                                    Inspector General
   Office of General Counsel                                                                                   Associate Inspector General
                                                     Deputy Inspector General                                 for Whistleblower Protection


       Assistant Inspector                                 Assistant Inspector                                   Assistant Inspector
                                                                                                              General for Administrative
          General for                                         General for
         Investigations                                          Audits                                             Services and
                                                                                                              Information Management

     Deputy           Principal Deputy             Principal Deputy               Deputy Assistant               Deputy
    Assistant             Assistant                    Assistant                 Inspector General              Assistant          Chief
    Inspector            Inspector                     Inspector                    for Audits -                Inspector       Information
   General for          General for                     General                    Headquarters                  General          Officer
Program Integrity      Investigations                                               Operations

                                                                                                                                Information
                                                                       Central                Office of                         Technology
    Program                                                                                Evaluations and                        Division
    Integrity                                                          Region               Management
    Division                                                     Lakewood, CO
                                                                Albuquerque, NM               Services
                                                                                                Herndon, VA

                                                                                                                                 Human
Western Region                                       Western Region                External                     Quality         Resources
 Sacramento, CA         Operations                    Sacramento, CA                Audits                     Assurance       Management
  Portland, OR           Division                      Honolulu, HI                Division                      Unit            Division
  Honolulu, HI                                        St. Thomas, VI               Reston, VA


            Central Region        Eastern Region         Northern Region                                                        Financial
            Lakewood, CO           Atlanta, GA             St. Paul, MN                                         Personnel      Management
           Albuquerque, NM         Herndon, VA            Rapid City, SD                                         Security       Division
              Tulsa, OK           New York, NY             Billings, MT


                                                                                                                                Operations
                                                                                                                                 Support
                                                                                                                                 Division




                                Semiannual Report to the Congress - April 1, 2005 - September 30, 2005                                        vii
                   Mission                       and Top Management Challenges


                                                                            Mission
                                                                               The mission of the OIG is to promote
                                                                           excellence, integrity, and accountability in
                                                                          the programs, operations, and management
                                                                         of DOI.

                                                                        Responsibilities
                                                                             The OIG is responsible for independently and
                                                                        objectively identifying risks and vulnerabilities
                                                                       that directly impact, or could impact, DOI’s ability
                                                                      to accomplish its mission. We are required to keep
                                                                    the Secretary and the Congress fully and currently
                                                                 informed about problems and deficiencies relating to
                                                           the administration of DOI programs and operations. Effec-
       tive implementation of this mandate addresses the public’s demand for greater accountability and integrity in
       the administration of government programs and operations, and addresses the demand for programs that work
       better, cost less, and get the results Americans care about most.

       Activities
            OIG accomplishes its mission by con-             DOI’s Top Management Challenges
       ducting audits, evaluations, assessments, and
       investigations relating to the programs and           Financial Management
       operations of DOI. Our activities are tied
       directly to DOI’s major responsibilities and          Information Technology
       are designed to assist DOI in developing
       solutions for its most serious management             Health, Safety, and Emergency Management
       and program challenges, most notably
                                                             Maintenance of Facilities
       cross-cutting or DOI-wide issues. These
       activities are also designed to ensure that we
                                                             Responsibility to Indians and Insular Areas
       keep critical issues prominent, which greatly
       influences key decisionmakers and increases
                                                             Resource Protection and Restoration
       the likelihood that we will achieve desired
       outcomes and results that benefit the public.         Revenue Collections

                                                             Procurement, Contracts, and Grants




viii   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
           Significant         Audits,
                               Audits, Evaluations,
                                       Evaluations, Assessments,
                                                    Assessments, and
                                                                 and                    Investigations



Department of the Interior
OIG Investigation Uncovers
Inappropriate Appraisal Process,
Prevents $120 Million Deal
     An OIG investigation concerning a
highly publicized plan for DOI to block
oil and gas drilling in Florida’s Big
Cypress National Preserve by buying the
subsurface mineral rights from a private
company resulted in significant changes
to DOI’s land appraisal program, and
ultimately saved American taxpayers
$120 million.

    Our investigation was initiated after
receiving allegations from a confidential
source that the Collier Resources Com-
pany took advantage of the politically
charged situation surrounding drilling in
the Florida Everglades and “bluffed” DOI
into executing an agreement to purchase        Big Cypress National Preserve
Collier’s mineral interests in the Big
Cypress National Preserve for $120 mil-
lion. The acquisition of the subsurface mineral rights for 400,000 acres – including a vast Everglades wildlife
refuge – was supported by both the Clinton and Bush administrations, heralded by environmentalists, and
enthusiastically supported by citizens and state leaders.

    While the intentions behind the attempted acquisition appeared to be firmly grounded in DOI’s desire to
protect the environmentally sensitive Everglades from potential harm, we found the means by which these
intentions were advanced to be very troubling. Our special report, “Agreement for the Acquisition and Dona-
tion of the Mineral Estate Between the United States of America and the Collier Family,” found nothing to
indicate that the mineral resources have “any significant value” and even suggested that DOI paid for those
rights in an earlier deal with Collier.

    Shortly after we concluded our investigation, Inspector General Earl E. Devaney testified before the
Senate Committee on Finance on June 8, 2005, to present the findings of the special report and outline the
various reasons why this acquisition was cause for concern.




                               Semiannual Report to the Congress - April 1, 2005 - September 30, 2005             
          Significant Audits,                 Evaluations, Assessments, and                 Investigations


    DOI Must Take Active Role in Concessions Management
         Concessioners are the main providers of commercial services to the almost 473 million people who
    visit DOI’s recreational sites each year. DOI has well over 600 concession agreements administered by
    four bureaus. Our audit found that DOI needs to take a more active role in concessions management. For
    example, we found insufficient management support, employees discouraged by a limited career path, a lack
    of information available to make decisions, and no comprehensive policy for making capital improvements
    or developing concession agreements.

        Because the concession program does not follow sound business practices, DOI may not be receiving fair
    value for concession activities. While states such as California and Florida receive concession fees as high as
    16 and 18 percent of concession revenue, respectively, DOI concession fees average less than 6 percent. In this
    regard, concessioners generated $850 million in annual gross receipts in fiscal year 2003 – from which DOI
    received $26.7 million in fees. An additional $22.7 million was retained in concessioner special accounts to be
    used for capital improvement projects for facilities used in concession operations.

        DOI agreed that concessions management must be improved and has committed to addressing our
    recommendations, including establishing a departmental working group to improve policies and practices.

    Public, Environment at Risk From Hazardous Materials
         Our audit found that significant deficiencies continue to hamper DOI’s management of hazardous materials
    sites on its lands. As a result, DOI risks exposing the public to hazardous contaminants and toxic substances.
    Specifically, our audit found that DOI cannot identify how many contaminated sites are on its lands and does
    not know if the most critical hazardous sites are being mitigated first. These deficiencies were attributable to
    DOI’s insufficient leadership, guidance, and oversight of its bureaus. DOI has not provided practical guidance
    to the bureaus for identifying, tracking, and prioritizing contaminated sites, and it has not provided the neces-
    sary degree of oversight to coordinate the management of hazardous materials site activities.

        We performed our audit with the assistance of EPA-OIG staff because of their extensive experience and
    expertise with hazardous materials information systems and processes to identify, assess, prioritize, and
    cost-estimate the mitigation of hazardous waste sites. EPA-OIG issued its own report, which identified promis-
    ing practices that could improve DOI’s management of its hazardous materials sites. DOI has committed to
    reviewing EPA-OIG’s report and providing us with an action plan to implement the practices determined to be
    relevant.

        We made seven recommendations to improve the management of hazardous materials sites. Five of the
    recommendations are considered resolved but not implemented and will be referred to DOI for tracking of
    implementation. Management concurred with the remaining two recommendations; however, we are waiting
    for additional information to resolve the recommendations.




   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
           Significant          Audits, Evaluations, Assessments, and                      Investigations


Workers’ Compensation Program Inefficient, Ineffective
    Overall, we found that management of DOI’s Workers’ Compensation Program was inefficient and
ineffective, resulting in workers’ compensation costs increasing annually and approaching $60 million in 2003.
DOI’s program for returning injured employees to work is at best managed inconsistently and at worst
subject to abuse by managers seeking an easy way to deal with problem employees. For example, we identified
38 employees who could have returned to light duty work – their benefit payments total $4.4 million. DOI is
also not fully using resources provided by the Office of Workers’ Compensation Programs (OWCP). Further,
DOI’s program is understaffed, employees lack training, and there is no uniform process for ensuring that costs
charged by OWCP are accurate.

    We also found an overwhelming lack of awareness and consideration of workers’ compensation fraud
during our review. More than 10 percent of the workers’ compensation cases we reviewed had indications
of potential fraud or abuse, but no action had been taken by the bureaus. These cases amounted to almost
$1.5 million charged to DOI over a 2-year period. For example, a temporary employee received $500,000 in
workers’ compensation over a 14-year period, even though he was capable of working 5 years after his injury.
The employee did not return to work allegedly because medical conditions unrelated to the on-the-job injury
prevented him from performing the duties and responsibilities of his position. Almost 6 years later, OWCP
requested a second medical opinion, and the doctor stated that the claimant could perform essentially any job
expected of a man of his age and training. The bureau still failed to follow up on the case. Unknown to the
bureau, the employee pursued and received a bachelor’s degree in 1998 and a master’s degree in 1999, at DOI’s
expense. Finally in 2002, after the bureau discovered and notified OWCP about the college degrees, OWCP
reduced the claimant’s compensation payments.

    As a result of these findings, we plan to establish a special unit in our Office of Investigations dedicated
solely to pursuing fraud cases related to workers’ compensation.

DOI Web-Based Applications Show Vulnerabilities
    In October 2004, we established a network security monitoring program to provide independent oversight
and monitoring of DOI’s network security. Our overall objective was to identify vulnerabilities that would
allow a potential “hacker” to have access from the Internet to internal DOI IT infrastructure, in addition to
sensitive and restricted information.

     In November 2004, we began penetration testing of DOI’s publicly
accessible networks and systems. We conducted reconnaissance, scan, and
intrusion activities on targeted DOI bureau-managed networks. With few
exceptions, we were able to compromise the tested bureaus’ IT infrastruc-
ture. Even more serious, we were able to access some of DOI’s most sensi-
tive information, such as financial- and privacy-related data. We developed
reports detailing activities, processes, vulnerabilities, and recommendations
for each penetration testing engagement. Unfortunately, DOI has been slow in
responding to our recommendations, specifically on those involving
sensitive- and privacy-related information.




                                Semiannual Report to the Congress - April 1, 2005 - September 30, 2005             
          Significant Audits,                  Evaluations, Assessments, and                 Investigations


    Process to Remedy IT Security Weaknesses Ineffective
        We concluded that DOI’s Plan of Action and Milestones process used to manage and remedy IT security
    weaknesses is ineffective. DOI’s process is incomplete, inaccurate, and misleading. Specifically, our evalu-
    ation determined that DOI has failed to identify all known IT security weaknesses and sufficiently describe
    IT security weaknesses and planned corrective actions. In addition, about half (64 of 133) of the weaknesses
    reported as corrected that we tested were not corrected.

         As a result, DOI lacks assurance that the most critical security weaknesses are being corrected first and that
    its systems and data are adequately safeguarded.

        We made five recommendations to assist DOI in improving its process. Based on DOI’s response to the
    draft report, we considered all five recommendations unresolved and asked DOI to reconsider its response. We
    recommended that the Plan of Action and Milestones process should be reported as a material weakness under
    the Federal Managers' Financial Integrity Act of 1982 in DOI’s 2005 Performance and Accountability Report.

    DOI’s Grant Program Has Serious Deficiencies
        Our review of the $1.5 billion grant program managed by DOI bureaus showed that to correct existing
    deficiencies and create a culture of accountability and stewardship for its grants programs, DOI must take a
    more holistic approach to managing the program. The current “stove-pipe” management style, coupled with a
    lack of an overall DOI vision, has created individual bureau-centered programs with serious deficiencies, such
    as a lack of competition, training, reliable data, and assurance that funds are being spent appropriately. These
    deficiencies do not promote the accountable use of federal dollars; the fair treatment of both grant applicants
    and recipients; or the reduction of risk for fraud, waste, and abuse.

         Although steps in the right direction, the efforts of a DOI-wide Federal Assistance Working Group to
    address these deficiencies are by themselves insufficient to develop the cohesive vision essential to protecting
    the integrity of DOI’s grants programs.

        We developed a framework for the holistic management of grants within DOI, encompassing seven
    core principles or key processes, which we identified as critical to the successful implementation of any
    management system, including grants management. These principles are:

    u	 Producing reliable data

    u	 Soliciting competition

    u	 Monitoring grants effectively

    u	 Writing effective grant agreements

    u	 Providing adequate training

    u	 Streamlining policies and procedures

    u	 Establishing measurable goals for grant programs




   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
           Significant          Audits, Evaluations, Assessments, and                    Investigations


    Where applicable, we offered promising management practices identified by both government and private
entities. We suggested actions that the Federal Assistance Working Group, in conjunction with the Office of
Acquisition and Property Management, could take to assess and implement the framework.

DOI, Agencies Not Always Implementing
Prior Audit Recommendations, as Reported
     DOI managers are responsible for ensuring that the actions agreed to be taken during the audit process are,
in fact, actually taken. As part of our ongoing strategy to ensure that recommendations from our prior audit
reports have been implemented, we performed four verification reviews and four status reviews. Verification
reviews determine if DOI managers have actually implemented closed recommendations, as they have reported,
and status reviews determine if their ongoing actions for open recommendations are sufficient and timely.

   For our four verification reviews, we concluded that bureau managers did not take the actions needed to
implement 5 of 16 recommendations. We referred one of the recommendations to DOI for tracking of imple-
mentation and requested that DOI reinstate the other 4 recommendations.

    For our four status reviews, we concluded that bureau managers had not taken timely or sufficient action to
implement 8 of our 11 recommendations. For 5 of the 8 recommendations, we requested that bureau directors
provide DOI with new or revised plans of action that identify target dates. For 3 of the 8 recommendations, we
determined that new legal restrictions prevented the bureaus from implementing these recommendations. We
concluded that these 3 recommendations should be considered closed.

Scrutiny of Single Audits Identifies Deficiencies
    The Single Audit Act Amendments of 1996 require nonfederal entities that expend federal awards equal
to or greater than $500,000 (in any fiscal year) to obtain a single audit for that year. One responsibility of
agencies is to conduct quality control reviews of selected audits made by nonfederal auditors. As part of our
responsibility for single audits, we recently completed 91 reviews and one comprehensive Quality Control
Review with various results, including the following:

u	 Four auditor referrals were made to the American Institute of Certified Public Accountants and various
   state boards of accountancy for substandard work.

u	 Thirteen reviews resulted in the auditors reissuing the reports to correct deficiencies.

u	 Seven reviews found that the auditor did not conduct sufficient tests of major programs or that the level of
   testing did not meet federal requirements.

   In addition, the OIG continued its participation in the National Single Audit Sampling Project. Federal
agencies have been analyzing the quality of single audits by conducting Quality Control Reviews, using a
comprehensive project instrument developed by the Project Management Team.




                               Semiannual Report to the Congress - April 1, 2005 - September 30, 2005              
          Significant Audits,                 Evaluations, Assessments, and                 Investigations


    Manager and Director Indicted on 15 Counts
        Janice Hughes, a former personnel manager with the National Plastering Industry’s Joint Apprenticeship
    Trust Fund, and former Trust Fund Executive Director Gilbert Wolf were indicted on 15 counts – 6 for bank
    fraud, 5 for mail fraud, 1 for conspiracy, 2 for money laundering, and 1 for forfeiture of property – for embez-
    zling $917,000 from DOI and Department of Labor contracts that had been awarded to benefit disadvantaged
    youths through Job Corps training.

        As first reported in our April 2005 Semiannual Report, the defendants created fictitious accounts and bills
    to cover the conversion of federal funds to personal use. They accomplished this by writing checks to current,
    former, and, in some instances, fictitious vendors with whom the Trust Fund purportedly conducted business.
    These checks for fictional expenses were then deposited in a hidden account. The embezzlers also prepared
    false invoices from the supposed vendors and altered checks so that they appeared to have been deposited by
    the vendor. The embezzled funds paid for monthly mortgage payments for their primary residence, their
    vehicle expenses, a country club membership, credit card accounts, and other expenses.




   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
           Significant          Audits, Evaluations, Assessments, and                     Investigations



Bureau of Indian Affairs
Fond du Lac Tribal and Community College
Loses Funding Due To Misrepresentation
    An investigation of the Office of Indian Education Programs (OIEP) revealed
improper disbursement of federal funds to the Fond du Lac Tribal and Community
College in Cloquet, MN. OIEP’s former post-secondary education program manager
and his supervisors failed to properly administer federal funds to the college from
1992 to 2004, resulting in a series of unjustified payments amounting to $6.9 million
(including $5.7 million distributed after the manager assumed program responsibility
in 1995).
                                                                                                  The Fond du Lac
                                                                                                Community College.
Demand for Indian Arts and Crafts
Attracts Many Non-Indians to Pirate Profits
     In response to allegations of a counterfeit Indian art market, we assessed the issues of misrepresentation and
counterfeiting in the Indian arts and crafts industry. Our evaluation confirmed that an imitation Indian art market
exists and negatively impacts Indian artisans and communities. We found that current
laws, while well-intended, do little to protect Indian artisans from the
unfair competition created by low-priced, mass-produced imitations
of their work. The primary law, the Indian Arts and Crafts Act, is
practically unenforceable and does not provide adequate authority to
the Indian Arts and Crafts Board. As a result, enforcement largely
depends upon the cooperation of agencies outside DOI’s control, such
as the FBI and U.S. Customs and Border Patrol.

     The Indian Arts and Crafts Board has focused most of its enforce-
ment efforts on criminal prosecution, which has produced no iden-
tifiable results by way of either criminal convictions or a measurable
decrease in counterfeit activity. Our report presented an alternative
approach to criminal enforcement, by which the Indian Arts and Crafts
Board could pursue action through steadily increasing levels of severity, and an
industry best practice. We provided four suggestions that DOI, in cooperation with the               Indian Art work.
Indian Arts and Crafts Board, can implement to mitigate the current situation.

$52 Million Inappropriately Used for School Construction
    During fiscal years 2000 through 2002, BIA violated statutory requirements by funding appromixately
$52 million in new or replacement school facility construction with major facilities improvement and repair
funds. The Congress authorized the use of facilities improvement and repair funds for school construc-
tion projects only for “tribally controlled” schools and required a 25-percent, cost-share contribution for these
projects. BIA used $11.6 million of the funds for school construction projects at four BIA-operated schools.
Further, BIA did not request or collect the required 25-percent cost-share of $10.2 million from tribally
controlled schools that received $40.6 million of the funds to pay for the construction projects.



                                Semiannual Report to the Congress - April 1, 2005 - September 30, 2005                  
          Significant Audits,                 Evaluations, Assessments, and                 Investigations


        We recommended that BIA do the following:

    u	 Discontinue the practice of using facilities improvement and repair program funds for school construction
       at BIA-operated schools.

    u	 Discontinue the practice of funding school construction with facilities improvement and repair program
       funds at grant and contract schools without the required 25-percent funding contribution.

    u	 Determine whether BIA has the authority to collect the required 25-percent, cost-share contributions from
       tribes using facilities improvement and repair program funds for replacement school construction. If BIA
       does have the authority, seek payment of the $10.2 million.

    Engineer Charged for Tampering With Evidence
         Kenneth Young, a BIA petroleum engineer, was charged in a superseding indictment for deleting files and
    images from his computer. As reported in our October 2004 Semiannual Report, Young was indicted by a
    federal grand jury in the U.S. District Court of Colorado for knowingly receiving child pornography transported
    in interstate commerce. Young allegedly possessed at least 50 child pornography images on his government
    computer. Young’s trial is scheduled for October 31, 2005.

        This is a cooperative investigation with the FBI.

    Former Kickapoo Tribe Health Director Sentenced
        Maricela Mendoza, a former community health director for the Kickapoo Traditional Tribe of Texas, was
    sentenced in the U.S. District Court for the Western District of Texas to 180 months in federal prison and 36
    months of probation. She was ordered to pay $103,940 in restitution, along with a $300 fine for money laun-
    dering and embezzlement.

        As we reported in our April 2005 Semiannual Report, a federal jury convicted her of embezzling federal
    funds from the tribe’s health care program, as well as for money laundering. These embezzled funds would
    have been used to pay for the medical treatments and necessary medicines for tribal members. The jury also
    awarded the federal government a monetary judgment against Mendoza in the amount of $102,000.

    Executive Director Sentenced for Theft of Tribal Monies
        Wanda Warren, the executive director for the Catawba Indian Nation, has been sentenced to 2 years of pro-
    bation and ordered to pay approximately $24,700 in restitution after entering a plea of guilty to theft of tribal
    monies.

         Referred to as “the people of the river,” the Catawba Indian Nation is South Carolina’s only federally rec-
    ognized tribe. Warren ran the tribe’s operations for 11 years in her capacity as tribal director. She also served
    on the tribal executive committee. Our investigation revealed that Warren filed false claims and received mon-
    ies she was not entitled to, among them reimbursement for deferred salary and a trip to Geneva, Switzerland.




   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
           Significant         Audits, Evaluations, Assessments, and                    Investigations


Director Indicted for Theft of Tribal Child Care Monies
    Crystal Owle Lambert, the director of child care services for the Eastern Band of Cherokee Indians in
North Carolina, embezzled at least $153,100 from 1998 through 2004. The embezzled funds came from mon-
ies intended for the Cherokee Center for Family Services. These monies should have been made available for
child care services to benefit tribal members.

Former Commissioner Indicted for Embezzlement
    Alvina Howard, former planning commissioner for the Running Antelope District of the Standing Rock
Sioux, was indicted and pleaded guilty in U.S. District Court to embezzlement and theft for her role in the
misappropriation of thousands of dollars from the Running Antelope District. As part of her plea agreement,
Howard is expected to testify against Susie Long Elk and other Running Antelope District officials, who are
expected to be charged as a result of this investigation. Long Elk, the former treasurer of the Running Ante-
lope District, was indicted earlier for her role in embezzling approximately $100,000 from the district. She is
currently awaiting trial. Sentencing for Howard is pending.

Attorney and Four Members of Tribe Plead Guilty
    In further developments concerning our investigation of the Skull Valley Band of Goshute Indians, Leon D.
Bear, band chairman, pled guilty to embezzling tribal funds for personal use. He was sentenced to 36 months
of probation and ordered to repay $73,542. Tribal members Sammy Blackbear, Marlinda Moon, and Miranda
Walsh, as well as their attorney, Duncan Steadman, also pled guilty to embezzling money from tribal accounts.
Blackbear was sentenced to 36 months of supervised probation and ordered to repay $17,300. Moon, Walsh,
and Steadman await sentencing.

     Problems began when Bear contractually agreed with Private Fuel Storage to house 40,000 metric tons of
high-level nuclear waste on reservation land located 45 miles from downtown Salt Lake City, UT. Learning
of the arrangement, Moon, Blackbear, and Walsh held an unauthorized tribal election to gain control of tribal
funds and subvert the contract with Private Fuel Storage. With Steadman’s help, they created false documents
to ratify the election and then used those documents to access approximately $833,000 in tribal bank accounts.
As reported in our April 2005 Semiannual Report, they spent $45,800 before the accounts were frozen. Stead-
man was actually the one who first requested the OIG investigation, supporting his request with a 3-inch binder
containing numerous allegations of corruption and embezzlement.




                               Semiannual Report to the Congress - April 1, 2005 - September 30, 2005             
           Significant Audits,                 Evaluations, Assessments, and                Investigations


     Consultant Pleads Guilty in Pharmaceutical Scheme
         Wilbur “Bill” Swift, Jr., a former pharmaceutical consultant to the Ft. Sill Apache Tribe of Oklahoma, pled
     guilty in U.S. District Court in Missouri to interstate transportation of property obtained by fraud. He awaits
     sentencing. His partner and accomplice, Fred Solmor, has been sentenced in U.S. District Court, Texas, to 51
     months in federal prison and 36 months probation after pleading guilty to a similar charge. Both men diverted
     approximately $1.8 million in pharmaceuticals from the tribe by secretly selling them to shell companies they
     controlled and then reselling the drugs at a profit on the pharmaceutical wholesale black market.




10   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
           Significant         Audits, Evaluations, Assessments, and                   Investigations



Bureau of Land Management
Manager Pleads Guilty to Possession
of Stolen Government ID and Records
     Bureau of Land Management (BLM) Air Tanker Base Manager Dan Boechler pled guilty to possession of
a stolen government ID as well as stolen records after a search of his residence turned up voluminous amounts
of stolen government property. The stolen records included copies of BLM employees’ Notification of Person-
nel Action forms, which contained social security numbers and dates of birth. He pled guilty following a plea
agreement with the U.S. Attorney’s Office.

Employee Pleads Guilty to Fraudulent Credit Charges
    Robert Beehler, a BLM field manager in Holister, CA, pled guilty to embezzlement in U.S. District Court
in Sacramento, CA. Our investigation determined that Beehler made fraudulent charges to his government
credit card, as well as convenience check purchases, all in excess of $30,000. At the conclusion of our inves-
tigation, the Sacramento U.S. Attorney’s Office accepted the case for prosecution. Beehler appeared in U.S.
District Court, where he agreed to pay $17,000 in fraudulent charges and pleaded guilty to one felony count of
embezzlement.

     This case underscored the importance of thorough administrative oversight of
all credit card purchases. Investigators recommended that managers conduct a
monthly review of all purchase activity.




                              Semiannual Report to the Congress - April 1, 2005 - September 30, 2005             11
          Significant Audits,                Evaluations, Assessments, and              Investigations



                                Bureau of Reclamation
                                Analyst Pleads Guilty to Embezzlement
         Janice Kuester, a Bureau of Reclamation (BOR) Job Corps administrative services analyst in Moses Lake,
     WA, conspired with her son, Shep David Kuester, and two others to steal approximately $150,000, using
     Kuester’s government credit card and convenience checks. The Kuesters appeared in U.S. District Court in
     Spokane, WA, following a plea agreement. Janice Kuester pled guilty to two felony counts of embezzlement
     and conspiracy and was sentenced to serve 24 months of imprisonment and 3 years of supervised release. She
     was ordered to pay approximately $144,000 in restitution to the government. Her son also pled guilty to two
     felony counts of embezzlement and conspiracy. He received a sentence of 18 months of imprisonment, 3 years
     of supervised release, and restitution of $64,800 to the government.




12   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
           Significant          Audits, Evaluations, Assessments, and                Investigations



Minerals Management Service
Shell Agrees to Pay $4,870,000 to Recover
Damaged 18th Century Shipwreck
     Based on the results of our investigation, Shell/
BP Okeanos Gas Gathering Company, LLC, reached
a financial settlement with the Minerals Manage-
ment Service (MMS) in which it agreed to pay Texas
A&M University $4,870,000 to salvage, restore,
and curate the archeological remains of a circa 1800
shipwreck, damaged by the company, as well as to
provide for an educational outreach program. The
wreck was discovered by Shell/BP subcontractor
Magellan Marine, Inc., hired to determine the best
route for the Okeanos Lateral Pipeline.
The decision to conceal the discovery
from MMS, which controls the right-of-
way, not only violated 30 CFR 250.194c,
but also resulted in destruction of
antiquities, among them an 18th Century
navigational tool, by a Shell/BP under-
water team. The shipwreck is one of the
most significant archeological finds from
the 18th Century in the Gulf of Mexico.
The Discovery Channel plans to docu-
ment the raising of the vessel.




                                                           Underwater images of archaeological items discovered.




                               Semiannual Report to the Congress - April 1, 2005 - September 30, 2005              13
           Significant Audits,                        Evaluations, Assessments, and                                                                        Investigations



                          National Park Service
                          Employee Convicted for Theft of Entry Fees
                               A jury convicted Genevieve Segura, a former St. John National Park fee collection
                           supervisor, of 14 counts of embezzlement and theft of money collected from visitors to
     Virgin Islands National Park. Our
     investigation revealed embezzlement
     of approximately $7,640 in entrance                                                        St. John                            Maho Bay
                                                                                                                                    Cinnamon Bay
                                                                                                                                    Trunk Bay
                                                                                                                                    Hawksnest Bay              Leinster Bay

     fees over a 3-year period.
                                                                St. ThomasSt. John
                                                                   Maho Bay
                                                                   Cinnamon Bay
                                                                   Trunk Bay
                                                                   Hawksnest Bay              Leinster Bay
                                                                                                                                 Caneel Bay
                                                                                                                                                                    Annaberg
                                                                                                                                                                Coral
                                                                                                                                                                 Bay

          Our investigation uncovered man- St. ThomasCharlotte Amalie
                                                                                                   Annaberg
                                                                Caneel Bay
                                                                                               Coral                                           Cruz Bay
                                                                                                Bay
                                                                              Cruz Bay
                                                                                                                                 Great Cruz                                       Round Bay

     agement weaknesses with the fee col-
                                           Charlotte Amalie
                                                                Great Cruz                                       Round Bay              Bay
                                                                       Bay
                                                                                   Fish Bay               Drunk Hurricane Hole
                                                                                                                                                    Fish Bay               Drunk Hurricane Hole
                                                                                                                                                                                 Coral Harbor
                                                                                                                                              Rendezvous Reef Bay
                                                                                                                Coral Harbor
                                                                             Rendezvous Reef Bay          Bay                                                              Bay

     lection process, which helped support
                                                                                          Lameshur Bay
                                                                             Bay                                                                           Lameshur Bay
                                                                                                     Ram Head                                 Bay
                                                                                                                                                                      Ram Head


     Seguara’s opportunities for embezzlement.
     The employee who counted the daily cash St. Croix
                                                                                                                  N




     receipts also filled out the deposit slips                                                                                                                                    N

                                                                      St. Croix
     and purchased cashier checks for the                       U.S. Virgin Islands
     cash collected. Then the fee deposits
     were permitted to accumulate in the
     safe for several days prior to a deposit                                       U.S. Virgin Islands
     being made. Finally, the person mak-
     ing the deposit carried large sums
     of cash to the bank alone without the benefit of another park official who could serve as a witness. The OIG
     recommended program oversight and management changes to help reduce potential opportunities for fraud.

     Manager Sentenced for Possession of Pornography
         Vincent Mullally, a former manager of the Administrative Operations Center, and a special assistant to the
     comptroller for the National Park Service, used his government and home computers to access and store child
     pornography. Following a guilty plea, he was sentenced in U.S. District Court, Eastern District of Virginia, to
     21 months of incarceration and 24 months of probation. The investigation occurred when a computer specialist
     examined his computer for a virus and discovered some of the images. Our forensic investigation later uncov-
     ered several hundred images.




14   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
           Significant          Audits, Evaluations, Assessments, and                     Investigations



Office of Insular Affairs
Strong Partnership Between ASG and OIA Needed
to Break Cycle of Fiscal Crisis in American Samoa
     Over the past two decades, the American Samoa Government (ASG)
has operated in a constant state of fiscal crisis, moving from one failed fiscal
reform effort to another. Our audit revealed that the latest reform, the 2001
Reform Plan, will also fail unless top leadership in ASG and the Office of
Insular Affairs (OIA) forge an active partnership dedicated to (1) developing
a comprehensive plan that addresses both short- and long-term fiscal reform
for the entire government and (2) adopting the best practices critical to the
success of any financial reform.
                                                                                   American Samoa
                                                                                   Government Building.
    The 2001 Reform Plan was not a comprehensive plan in that it set only
short-term goals to meet an immediate fiscal crisis and noticeably lacked
goals for long-term solvency, namely a balanced budget that includes all ASG entities; aggressive revenue
enhancement and cost-cutting measures; and options for restructured operations, privatization, expanded eco-
nomic development, and direct foreign investment. ASG’s failure to accomplish fiscal reform was evidenced in
OIA’s June 9, 2005 letter to the Governor of American Samoa, which designated ASG as a “high-risk” grantee
under 43 CFR 12.52, and not in compliance with the 2001 Fiscal Reform Plan. ASG, for example, did not meet
Reform Plan goals of controlling expenditures, developing realistic budgets, or completing seriously delinquent
financial statements and reports, all of which have been identified as long-standing deficiencies.

     We made five recommendations focusing on an active partnership between OIA and ASG to effect true
fiscal reform, as well as the need for OIA to coordinate with other agencies providing federal financial assis-
tance to resolve cross-cutting management control deficiencies and hold ASG accountable if agreed-upon fiscal
reform goals and milestones are not met. In addition to designating ASG a high-risk grantee, OIA was aggres-
sively monitoring the progress of the reform plan and had increased reporting requirements, while restricting
access to funds. OIA is also developing a plan that identifies the actions ASG must complete to remove the
high-risk designation.

    Based on the responses of OIA and ASG, we consider the recommendations directed to OIA to be resolved
and implemented and those directed to ASG to be unresolved.




                                Semiannual Report to the Congress - April 1, 2005 - September 30, 2005            15
           Significant Audits,                    Evaluations, Assessments, and                    Investigations


     Leadership Needed to Improve VI Accountability
          Our four audits of U.S. Virgin Island programs and activities
     during this reporting period revealed that DOI must continue to
     exercise strong leadership in helping the Government of the
     Virgin Islands improve its business management practices and
     accountability for federal funds. One area that has improved
     is the government’s response to our recommendations. In our
     March 2003 Semiannual Report, for example, more than
     80 percent of audit recommendations directed to the Govern-
     ment of the Virgin Islands remained unresolved, whereas for this
     reporting period, more than 70 percent of our audit recommenda-
     tions are resolved. Despite this progress, much work remains to
     be done, particularly in the area of ensuring the accountability of
     federal monies. Specifically:                                       The new fire truck did not properly fit into
                                                                             the garage.
     u	 Our audit of contracts for facility improvements, Virgin
        Islands Fire Service, revealed problems in documenting grant expenditures and costly failures in monitor-
        ing construction projects, as well as the use of grant equipment. Redesigned bays at one fire station, for
        example, could not adequately accommodate a new fire truck.

     u	 Our audit of U.S. Fish and Wildlife (FWS) grants for boating access facilities, Government of the Virgin
        Islands, likewise revealed failures in the awarding and monitoring of a construction contract that resulted
        in more than a 2-year delay in rebuilding an essential fisherman’s pier and boat ramps on the island of St.
        Croix. Based on our recommendations, FWS, which awarded the grant, gave the Government of the Virgin
        Islands a firm deadline of September 30, 2005, to either complete the project or return the grant funds.

     u	 Our audit of the Indirect Cost Fund, Government of the Virgin Islands,
        concluded that the lack of a sound overall approach for administering
        indirect costs resulted in an under-recovery of these costs by as much
        as $5.9 million, thereby jeopardizing the Government of the Virgin
        Islands’ ability to adequately finance the administrative functions that
        support grant programs. An additional $3.6 million in indirect cost
        reimbursements were not allocated equitably among central service and
        program agencies or were used for non-grant purposes.

     u	 Our audit of grants for waste disposal projects, Government of Virgin
        Islands, found problems with the documentation of the award of con-
        struction contracts, as well as the overcharging of salaries to grant funds
        and the lack of adequate safeguarding of grant-funded equipment. Our
        recommendations to the Deputy Assistant Secretary for Insular Affairs
        resulted in the implementation of actions to improve the Government of
        the Virgin Islands administration of OIA grants.                                   Scrap metal processor at the Bovoni
                                                                                           Landfill on St. Thomas.




16   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                    Significant                      Audits, Evaluations, Assessments, and                                                             Investigations


Director, Manager Sentenced in Theft of Oil Scheme
     Frederick A. Cochran, the director
of an oil service company, and Frank
S. Santos, the general manager of an
oil distribution company, stole oil from
the Guam Power Authority and then
sold it back to that company. Both
men later were sentenced in the U.S.
District Court of Guam to 60 months of
probation and were fined $500,000 and
$100,000, respectively. Their sentences
were diminished due to the substantial
assistance they had provided the gov-
ernment in other cases. Cochran and
Santos had pled guilty to conspiracy to
commit wire fraud and conspiracy to
commit money laundering.                                                                    The Guam Power Authority.

    We conducted the investigation jointly with the FBI, and the case was prosecuted by the U.S. Attorney’s
Office in Guam.	

OIG Reports on Work and Training for Insular Areas
China                                                                                                                                         Our Insular Areas field liaison for
                                                                  International Date Line




          Taiwan
                                                                                              Hawaiian Islands
                                                                                                                                 N       the Pacific reported progress in sev-
 South
 China Philippines
                                  Northern
                                                                                                  (U.S.)                                 eral areas, such as increased capacity
  Sea          Phillippine
                  Sea             Mariana
                                   Islands     Republic of the
                                                                                            North Pacific Ocean                          of the Insular Areas Public Auditors
  Malaysia                     Guam            Marshall Islands                                                                          Offices to perform audits and investi-
                                 Federated States
        Brunel         Palau      of Micronesia                                                                                          gations over the use of Compact and
        Indonesia               Papa                 Nauru               Kiribati                                                        local funds and the review of related
                                New
 Java Sea
            Aratura Sea         Guinea          Solomon
                                                             Tuvalu    Tokelau (N.Z.)
                                                                                                                                         accounting systems and controls, and
                                  Solomon Sea Islands
     Timor Sea
                                               Vanualu
                                                                            Amer. Samoa
                                                         Wallis and Western(U.S.) Cook Islands                                           reporting processes.
                                    Coral Sea              Futuna Samoa           (New Zealand)
                                              New         (France)
                                                                          Niue (N.Z.)
                                           Caledonia
                   Australia
                                            (France)          Fiji  Tonga     We continued efforts to provide      French
                                                                                                                  Polynesia
                                                                         improved training opportunities to                   Pitcairn
                                           South Pacific Ocean                                                                (U.K.)
                                                                         the Public Auditors Offices, which
                           Tasman                                        resulted in eight auditors and three
    South Pacific Ocean
                             Sea
                                   New
                                  Zealand              Pacific Islands
                                                                         investigators attending stateside
                                                                         training. The staff came from the
                                                                        Public Auditors Offices in Guam,
Republic of the Marshall Islands, American Samoa, Federated States of Micronesia, and the Commonwealth of
the Northern Mariana Islands. We are currently developing additional training opportunities in early fiscal year
2006.

    We also performed evaluations and assessments for several Insular Areas governments, which resulted in
the preparation of 4 project reports, as follows:




                                                    Semiannual Report to the Congress - April 1, 2005 - September 30, 2005                                                          17
           Significant Audits,               Evaluations, Assessments, and                 Investigations


     	   1.	 Evaluation Report: Compact Implementation, Republic of the Marshall Islands
         2.	 Memorandum: Hospital Needs Corrosion Inspection and Repair, Republic of Palau
         3.	 Memorandum: Maintenance Issues for Compact-Funded Road System, Republic of Palau
         4.	 Memorandum: Status of Compact Trust Fund, Republic of Palau

         Several Insular Areas governments requested that we provide training on Compact grant management
     processes and system improvements. In addition, we provided similar training to OIA’s Honolulu-based
     program specialists and are scheduled to provide further training. We also continued our efforts to resolve
     outstanding internal audit recommendations. As of September 30, 2005, a total of 181 recommendations – 92
     percent – were processed and closed.




18   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
            Significant          Audits, Evaluations, Assessments, and                      Investigations



U.S. Fish and Wildlife Service
Audits of State Grants Identify
$4.3 Million in Questionable Costs
and Unreported Income
     Audits of grants that the FWS awarded to 11 states and one Insular Area government for sport fish and wild-
life restoration projects revealed a potential savings of $4.3 million. The grants finance up to 75 percent of state-
sponsored projects, such as developing sites for boating access and acquiring and managing natural habitats.

     During audits of grants in eight states and one territory, we questioned the eligibility for reimbursements
of approximately $4,017,360 and identified income of $320,970 from grant-supported activities. The income
could be used to defray grant costs or to fund additional grant activities. We also identified a recent law in one
state that could result in the diversion of license revenues of up to $1.6 million.

Manager Guilty of Possession of Child Pornography
    Eric Smith, an FWS program manager, appeared before the U.S. District Court in Atlanta, GA, where he
signed a waiver of indictment, agreeing to plead guilty to the felony count of possession of child pornogra-
phy. Investigators had uncovered thousands of photographs on Smith’s home and work computers that they
determined to be child pornography. A court date has yet to be set.

Employee Faces 10 Years for Computer Pornography
    Gary Heet, a former Seney National Wildlife Refuge employee, pled guilty to possessing pictures of
minors engaged in sexually explicit conduct. A computer virus with a sexually suggestive title found on Heet’s
computer caused his supervisor to become suspicious. When an OIG computer forensics specialist examined
Heet’s hard-drive, he identified more than 2,000 pornographic images, of which a substantial number pertained
to children. Based on this information, the OIG and the FBI obtained a search warrant for Heet’s residence,
where investigators seized additional evidence. Heet confessed to the crime and now faces a maximum penalty
of 10 years of imprisonment, 3 years of supervised release, and a fine of not more than $250,000.

Biology Technician Pleads Guilty to Wire Fraud
    Scott Rickettson, a biological science technician at Medicine Lake, MT, submitted two fraudulent wildlife
extension agreements that helped the Ft. Peck tribes successfully apply for two FWS grants totaling $36,500.
Rickettson then appropriated the money by submitting four fraudulent invoices when neither Rickettson nor
Wildlife Veterinary Consulting, the fictitious company he created, provided any of the services detailed in those
invoices.

   OIG investigators also discovered that Rickettson provided false statements on his application for federal
employment. Rickettson pled guilty to multiple violations of wire fraud, theft of government funds, forgery of
government contracts, theft by a government employee, and false claims.




                                Semiannual Report to the Congress - April 1, 2005 - September 30, 2005                  19
           Significant Audits,                Evaluations, Assessments, and                Investigations



                                 U.S. GEOLOGICAL SURVEY

     University Professor Pleads Guilty to Stealing $45,000
         Dewitt Davis, a geography professor at the University of the District of Columbia, Washington, D.C., pled
     guilty to interstate transportation of stolen property. From 1997 to 2000, Davis embezzled approximately
     $45,000 in grant funds awarded to the university by the U.S. Geological Survey for water resource research.
     He siphoned funds from the grant into his personal account, using a direct deposit form. Following his guilty
     plea, Davis received 6 months of home detention and 36 months of probation. The court also required him to
     make full restitution of the $45,000, plus interest.




20   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
            Significant          Audits, Evaluations, Assessments, and                   Investigations



SUMMARY OF SIGNIFICANT ONGOING
OIG ACTIVITIES
OIG Continues Investigation into Lobbying Activities
    Our office continues to conduct an investigation, initiated in 2004 along with the FBI, of prominent Wash-
ington, D.C., lobbyists concerning lobbying activities for at least 15 Indian tribes paying astonishing fees for
imperceptible services.

    Under the direction of the Public Integrity Section of the Department of Justice, our office has joined a
task force of OIG, FBI, and IRS agents to strategically focus on any potential criminal violations committed in
conjunction with Indian lobbying activities.

Assessment Underway of BOR Dam Protection
     As part of our ongoing effort to
promote actions taken by DOI to pro-
tect its facilities, we are finalizing an
assessment of BOR’s security and law
enforcement program for its dams.
After the terrorist attacks on
September 11, 2001, BOR faced the
challenge of developing a formal
security and law enforcement program
in an agency that formerly had limited
responsibilities for these functions.

     BOR dams are a major component
of the nation’s critical infrastructure
systems, distributing water and power
throughout the western United States.
Failure of critical dams could lead to
significant property damage with con-
sequences for the nation’s economy as
well as public safety. Given these risks, BOR found it essential to develop a comprehensive program to assess
and manage security risks. Our office is conducting an assessment of BOR dam security that extends from top
management to field activities.




                                Semiannual Report to the Congress - April 1, 2005 - September 30, 2005             21
                                                                                  Appendix One


Summary of Audit and Related Activities
From April 1, 2005, Through September 30, 2005



                                                Audits Performed by:
	                                     OIG Staff	                  OIG Staff Single Audit
	                        Internal, Grant, and Contract Audits	   Quality Control Reviews	        Total

    Reports Issued To

    Department/Office
    of the Secretary	                    11	                                0	                    11

    Fish and Wildlife
    and Parks	                           18	                                1	                    19

    Indian Affairs	                        3	                               0	                     3

    Insular Affairs	                       5	                               0	                     5

    Land and Minerals
    Management	                            5	                               0	                     5

    Water and Science	                     1	                               0	                     1

    Other Federal
    Agencies	                              3	                               0	                     3

    Total Reports
    Issued	                              46	                                1	                   47




                                 Semiannual Report to the Congress - April 1, 2005 - September 30, 2005   23
             Appendix Two


     Reports Issued During the 6-Month Period
     Ended September 30, 2005
     This listing includes all internal reports (internal audits, advisory reports, assessments, and evaluations),
     contract and grant audits, and single audit quality assurance review reports issued during the 6-month period
     ended September 30, 2005. It provides report number, title, issue date, and monetary amounts identified in
     each report (* Funds To Be Put To Better Use, ** Questioned Cost, *** Unsupported Cost, and **** Lost or
     Potential Additional Revenues).

     Internal Reports
     American Samoa

     P-IN-AMS-0117-2003	             American Samoa: Top Leadership Commitment Needed to Break
                                     the Cycle of Fiscal Crisis (09/19/05)

     Bureau of Indian Affairs

     X-IN-MOI-0005-2003	             Review of the Bureau of Indian Affairs (BIA) Process for Estimating the Cost
                                     of Transporting Indian Children to BIA-Funded Schools (06/02/05)

     C-IN-BIA-0015-2004	             Bureau of Indian Affairs Use of Facilities Improvement and Repair Funds
                                     (08/29/05); * $10,200,000

     E-EV-BIA-0063-2003	             Process Used To Assess Applications to Take Land Into Trust
                                     for Gaming Purposes (09/01/05)

     Bureau of Land Management

     C-ST-BLM-0011-2005	             Status Review of Recommendations 1 and 2 From Our May 1992 Audit
                                     Report No. 92-I-828, Titled, “Onshore Geophysical Exploration Program,
                                     Bureau of Land Management” (09/28/05)

     C-VS-BLM-0014-2005	             Verification Review of Six Recommendations From Our September 1999
                                     Audit Report No. 99-I-917, Titled, “Special Drug Reduction Funds,
                                     Bureau of Land Management” (09/28/05)

     C-FL-BLM-0096-2004	             Status Review of Six Recommendations From Our March 1995 Audit Report
                                     No. 95-I-747, Titled, “Right-Of-Way Grants, Bureau of Land Management”
                                     (09/30/05)

     C-VS-BLM-0010-2005	             Verification Review of Six Recommendations From Our September 1996
                                     Audit Report No. 96-I-1267, Titled, “Inspection and Enforcement Program
                                     and Selected Related Activities, Bureau of Land Management” (09/30/05)




24   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                                                                            Appendix Two


U.S. Geological Survey

A-VS-GSV-0006-2005	    Verification Review of One Recommendation Considered Implemented From
                       Audit Report No. 2003-I-0042, Titled, “Improvements Needed in Security
                       Over Information Technology Systems Critical to the Scientific Objectives
                       of the U.S. Geological Survey” (09/16/05)

Minerals Management Service

C-VS-MMS-0012-2005	    Verification Review of Three Recommendations Considered Implemented
                       From Our March 2000 Audit Report No. 00-I-279, Titled, “Small Refiners
                       Program, Minerals Management Service” (09/20/05)

Multi-Office Audits

E-IN-MOA-0008-2004	    Department of the Interior Workers’ Compensation Program (05/09/05)

X-IN-MOA-0027-2004	    U.S. Department of the Interior, Interior Trust Funds Management (06/06/05)

E-EV-MOA-0016-2005	    District of Columbia Water and Sewer Authority Payments for
                       January 1, 2005, Through March 31, 2005 (06/10/05)

C-IN-MOA-0049-2004	    Department of the Interior Concessions Management (06/13/05)

E-EV-MOA-0024-2005	    District of Columbia Water and Sewer Authority Payments for April 1, 2005,
                       Through June 30, 2005 (07/22/05)

C-IN-MOA-0040-2004	    U.S. Department of the Interior Hazardous Materials Site Management
                       (08/22/05)

W-IN-MOA-0052-2004	    Framework Needed to Promote Accountability in Interior’s Grants
                       Management (08/24/05)

A-EV-MOA-0001-2005	    The Department of the Interior’s Process To Manage Information Technology
                       Security Weaknesses (09/23/05)

W-IN-MOA-0085-2004	    Managing Land Acquisitions Involving Nonfederal Partnerships –
                       Department of the Interior (09/29/05)

National Park Service

A-ST-NPS-0005-2005	    Status Report on One Recommendation From the Audit Report, Titled,
                       “Improvements Needed in Managing Information Technology System Secu-
                       rity, National Park Service” (08/29/05)

Office of the Secretary

E-EV-OSS-0003-2005	    Indian Arts and Crafts: A Case of Misrepresentation (06/01/05)




                      Semiannual Report to the Congress - April 1, 2005 - September 30, 2005         25
            Appendix Two


     U.S. Fish and Wildlife Service

     C-IN-FWS-0004-2005	         Management Issues Identified During the Audit of the U.S. Fish and Wildlife
                                 Service’s Fiscal Years 2004 and 2003 Financial Statements (04/07/05)

     X-IN-FWS-0017-2005	         Audit of U.S. Fish and Wildlife Service Administrative Costs to Support
                                 Wildlife and Sport Fish (08/29/05)

     X-EV-FWS-0016-2005	         Observations on the Condition of the Fuel Farm at Midway Atoll National
                                 Wildlife Refuge (08/30/05)

     W-IN-MOA-0119-2003	         Payments to Counties to Acquire Waterfowl Production Areas in Minnesota
                                 and Wisconsin – U.S. Fish and Wildlife Service (09/29/05)

     C-ST-FWS-0008-2005	         Status Review of Two Open Recommendations, A.3 and A.4 From Audit
                                 Report No. 97-I-1305, Titled, “Automated Law Enforcement System,
                                 U.S. Fish and Wildlife Service” (09/30/05)

     U.S. Virgin Islands

     V-IN-VIS-0072-2004	         Grants for Waste Disposal Projects, Department of Public Works, Government
                                 of the Virgin Islands (05/11/05); ** $4,401

     V-IN-VIS-0110-2003	         Indirect Cost Fund, Government of the Virgin Islands (06/22/05); ****696,530

     V-IN-VIS-0078-2004	         Fish and Wildlife Grants for Boating Access Facilities, Government of the
                                 Virgin Islands (08/19/05); *$30,600

     V-IN-VIS-0100-2004	         Contracts for Facility Improvements, Virgin Islands Fire Service, Government
                                 of the Virgin Islands (09/20/05); * $153,980; *** $24,000

     Contract and Grant Audits
     Office of the Secretary

     E-CX-OSS-0013-2005	         Costs Billed by Quapaw Information Systems, Inc., From June 2004
                                 Through November 2004, Under the Department of the Interior Contract No.
                                 NBCHC040140, Office of Historical Trust Accounting (09/26/05);
                                 ** $10,151; *** $303,318

     U.S. Fish and Wildlife Service

     R-GR-FWS-0023-2004	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                                 State of Rhode Island, Department of Environmental Management, Division of
                                 Fish and Wildlife, From July 1, 2001, Through June 30, 2003 (05/19/05)

     R-GR-FWS-0006-2004	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                                 State of Arkansas, Game and Fish Commission, From July 1, 2001,Through
                                 June 30, 2003 (05/20/05); **$147,013



26   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                                                                            Appendix Two


R-GR-FWS-0003-2005	    U.S. Fish and Wildlife Service Federal Assistance Motorboat Access Grants
                       Administered by the State of California, Department of Fish and Game, From
                       July 1, 2001, Through June 30, 2003 (07/15/05); **$445,944; ***$205,664

R-GR-FWS-0018-2003	    U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                       the State of California, Department of Fish and Game, From July 1, 2001,
                       Through June 30, 2003 (07/15/05); ** $138,342; *** $2,539,917

R-GR-FWS-0009-2005	    U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                       Commonwealth of Pennsylvania, Fish and Boat Commission, From
                       July 1, 2002, Through June 30, 2004 (09/01/05)

R-GR-FWS-0001-2005	    U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                       the State of New Mexico, Department of Game and Fish, From July 1, 2002,
                       Through June 30, 2004 (09/02/05)

R-GR-FWS-0012-2004	    U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                       State of Oregon, Department of Fish and Wildlife, From July 1, 2001, Through
                       June 30, 2003 (09/02/05)

R-GR-FWS-0002-2005	    U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                       State of Alabama, Department of Conservation and Natural Resources, Wild-
                       life and Fresh Water Fisheries Division and Marine Resources Division, From
                       October 1, 2002, Through September 30, 2004 (09/07/05); *$182,170

R-GR-FWS-0006-2005	    U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                       Commonwealth of Massachusetts, Executive Office of Environmental Affairs,
                       Department of Fish and Game, Division of Marine Fisheries, From
                       January 1, 2003, Through December 30, 2004 (09/08/05)

R-GR-FWS-0014-2004	    U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                       Commonwealth of Puerto Rico, Department of Natural and Environmental
                       Resources, From July 1, 2001, Through June 30, 2003 (09/19/05)

R-GR-FWS-0007-2005	    U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                       the Commonwealth of Massachusetts, Executive Office of Environmental
                       Affairs, Department of Fish and Game, Division of Fisheries and Wildlife,
                       From July 1, 2002, Through June 30, 2004 (09/30/05); * $130,296;
                       ** $16,779; *** $12,740

R-GR-FWS-0008-2004	    U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                       State of Idaho, Department of Fish and Game, From July 1, 2001, Through
                       June 30, 2003 (09/30/05); * $8,504; ** $310,000; *** $200,965




                      Semiannual Report to the Congress - April 1, 2005 - September 30, 2005          27
              Appendix Two


     Single Audit Quality Control Reviews
     B-QC-MOA-0009-2005	                    American Bird Conservancy, Year Ending December 31, 2003 (08/30/05)


     Other Reports1
     R-GR-FCC-0007-2003	                    Review of FCC E-Rate Benefits Received by St. Mary’s Catholic School,
                                            Christiansted, VI (08/18/05)

     R-GR-FCC-0008-2003	                    Review of FCC E-Rate Benefits Received by St. Joseph’s High School,
                                            St. Croix, VI (08/18/05)

     R-GR-FCC-0009-2003	                    Review of FCC E-Rate Benefits Received by St. Patrick School, Frederiksted,
                                            St. Croix, VI (08/18/05)




     1
       The reports were issued to the Inspector General of the Federal Communications Commission, whose office is responsible for all ac-
     tions on these reports.


28   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                                                                                 Appendix Three


Monetary Impact of Audit Activities
From April 1, 2005, Through September 30, 2005


	   Activity	       Questioned Costs**	 Funds to be Put To Better Use	   Revenues	          Total

Bureau of
Indian Affairs	             0	                    $10,200,000	              0	           $10,200,000
Bureau of Land
Management	                 0	                           0	                 0	                0
Bureau of
Reclamation	                0	                           0	                 0	                0
U.S. Fish and
Wildlife Service	       $4,017,384	                $320,970	                0	            $4,338,354
Insular Areas:*
	 U.S. Virgin
	 Islands	               $28,401	                  $153,980	             $696,530	         $878,911
Multi-Office	               0	                           0	                 0	                0
Office of the 	
Secretary	               $313,469	                       0	                 0	             $313,469
National Park
Service	                    0	                           0	                 0	                0
Total	                 $4,359,254	              $10,674,950	             $696,530	      $15,730,734


* Includes monetary impact of nonfederal funds.
** Unsupported costs are included in questioned costs.




                              Semiannual Report to the Congress - April 1, 2005 - September 30, 2005   29
           Appendix Four


     Nonfederal Funding Included in Monetary Impact
     of Audit Activities During the 6-Month Period
     That Ended September 30, 2005
     V-IN-VIS-0110-2003 	        “Indirect Cost Fund, Government of the Virgin Islands,” dated June 22, 2005.
                                 The report identified $696,530 as monetary impact consisting of $696,530 in
                                 unrealized revenues. All of the funds were Insular Funds.

     V-IN-VIS-0100-2004	         “Contracts for Facility Improvements, Virgin Islands Fire Service, Govern-
                                 ment of the Virgin Islands,” dated September 20, 2005. The report identified
                                 $177,980 as monetary impact consisting of $24,000 in unsupported costs
                                 ($24,000 federal) and $153,980 in funds to be put to better use ($72,331
                                 federal and $81,649 Insular).




30   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                                                                                                       Appendix Five


Audit Resolution Activities
Table 1: Inspector General Audit Reports With Questioned Costs*


	     	                                        Number of Reports	            Questioned Costs	           Unsupported Costs


A.	   For which no management
	     decision had been made by the
	     commencement of the reporting
	     period.1	                                           35	                   $14,094,790	                 $1,261,9461

B.	 Which were issued during the
	 reporting period.	                                        7	                    $4,359,254	                 $3,286,604

	     	   Total (A+B)	                                    42	                   $18,454,044	                  $4,548,550

C.	 For which a management decision
	 was made during the reporting
	 period. 	                                                 5	                    $1,233,891	                    $315,598

		        (i) Dollar value of
		        recommendations that
		        were agreed to by
		        management. 	                                     4	                      $456,038	                    $299,064

		        (ii) Dollar value of
		        recommendations that
		        were not agreed to by
		        management. 	                                     1	                      $777,853	                      16,534

D.	 For which no management
	 decision had been made by the
	 end of the reporting period.2 	                         39	                   $17,220,153	                  $4,232,952

E. 	 For which no management
	 decision was made within
	 6 months of issuance. 	                                 31	                   $12,868,401	                     $946,348




* Unsupported costs are included in questioned costs.
1
  Beginning balance differs from April 2005 Semiannual Report ending balance by $262,205 (increase) because of corrective adjustments.
2
  Number of reports does not calculate from above because some reports included costs in which a management decision was made and
other costs in which a decision still has not been made.


                                    Semiannual Report to the Congress - April 1, 2005 - September 30, 2005                               31
               Appendix Five


     Audit Resolution Activities
     Table II: Inspector General Audit Reports With Recommendations
     That Funds Be Put To Better Use

     	     	                                               Number of Reports	                              Dollar Value


     A.	   For which no management
     	     decision had been made by the
     	     commencement of the reporting
     	     period.1	                                                  12	                                $53,693,8261

     B.	 Which were issued during the
     	 reporting period. 	                                             5	                                 $10,623,901

     	     	   Total (A+B)	                                           17	                                 $64,317,727

     C.	 For which a management decision
     	 was made during the reporting period. 	                         3	                                   $3,469,012

     	 (i)	 Dollar value of recommendations
     		 that were agreed to by management. 	                           2	                                   $3,462,755

     	 (ii)	 Dollar value of recommendations
     		 that were not agreed to by management. 	                       1	                                        $6,257

     D.	 For which no management decision
     	 had been made by the end of the
     	 reporting period.2 	                                           15	                                 $60,848,715

     E.	 For which no management decision
     	 was made within 6 months of issuance. 	                        11	                                 $50,303,402




     1
      Beginning balance differs from April 2005 Semiannual Report ending balance by $41,914 (increase) because of a corrective adjustment.
     2
      Number of reports does not calculate from above because some reports included costs in which a management decision was made and
     other costs in which a decision still has not been made.



32   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                                                                              Appendix Five


Audit Resolution Activities
Table III: Inspector General Audit Reports
With Lost or Potential Additional Revenues

	     	                                     Number of Reports	                Dollar Value


A.	   For which no management
	     decision had been made by the
	     commencement of the reporting
	     period.	                                       8	                     $217,365,640

B.	 Which were issued during the
	 reporting period. 	                                0	                                0

	     	   Total (A+B)	                               8	                     $217,365,640

C.	 For which a management decision
	 was made during the reporting period. 	            0	                                0

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 	              0	                                0

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 	          0	                                0

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                                8	                     $217,365,640

E.	 For which no management decision
	 was made within 6 months of issuance. 	            8	                     $217,365,640




                              Semiannual Report to the Congress - April 1, 2005 - September 30, 2005   33
             Appendix Six


     Summary of Audit Reports Over 6 Months
     Old Pending Management Decisions at
     September 30, 2005
     This listing includes a summary of internal, contract (except pre-awards), and grant audit reports that were
     over 6 months old on September 30, 2005, and still pending a management decision. It provides report
     number, title, issue date, number of unresolved recommendations, and unresolved amount of monetary
     benefits identified in the audit report.

     Internal Audits
     Bureau of Indian Affairs

     W-FL-BIA-0047-2002	             School Construction Program, Bureau of Indian Affairs (2/24/04);
                                     2 Recommendations; $2,100,000 Unresolved

     Bureau of Land Management

     W-IN-BLM-0009-2003	             Audit of Oil and Gas Permitting Process, Bureau of Land Management
                                     (2/13/04); 1 Recommendation	

     C-IN-BLM-0062-2004	             Independent Auditors’ Report on the Bureau of Land Management’s Financial
                                     Statements for Fiscal Years 2004 and 2003 (1/12/05); 4 Recommendations

     C-IN-BLM-0013-2005	             Public Safety Issues at the Saginaw Hill Property, Bureau of Land
                                     Management (3/15/05); 4 Recommendations

     Bureau of Reclamation

     C-IN-BOR-0063-2004	             Independent Auditors’ Report on the Bureau of Reclamation’s Financial
                                     Statement for Fiscal Years 2004 and 2003 (1/31/04); 3 Recommendations

     Multi-Office Audits

     2001-I-0297	                    Stripper Oil Well Property Royalty Rate Reduction (3/30/01);
                                     2 Recommendations

     A-EV-MOA-0006-2004	             Annual Evaluation of the Information Security Program of the Department of
                                     the Interior (10/6/04); 2 Recommendations

     A-IN-MOA-0004-2004	             Department of the Interior’s Use of Wireless Technologies (12/6/04);
                                     6 Recommendations

     X-IN-MOA-0004-2005	             Management Issues Identified During the Audit of the Department of the
                                     Interior’s Fiscal Years 2004 and 2003 Financial Statements (3/14/05);
                                     1 Recommendation	




34   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                                                                             Appendix Six


National Park Service

A-IN-NPS-0074-2003	    Improvements Needed In Managing Information Technology System Security,
                       National Park Service (3/29/04); 1 Recommendation

C-IN-NPS-0001-2005	    Public Safety Concerns At Floyd Bennett Field, Gateway National
                       Recreational Area (11/18/04); 2 Recommendations

E-IN-NPS-0056-2004	    Independent Auditors’ Report on the National Park Service’s Financial
                       Statements for Fiscal Years 2004 and 2003 (12/10/04); 2 Recommendations

E-IN-NPS-0007-2005	    Management Issues Identified During the Audit of the National Park
                       Services’ Fiscal Years 2004 and 2003 Financial Statements (1/5/05);
                       4 Recommendations

U.S. Fish and Wildlife Service

C-IN-FWS-0064-2004	    Independent Auditors’ Report on the U.S. Fish and Wildlife Service’s
                       Financial Statements for Fiscal Years 2004 and 2003 (2/14/05);
                       4 Recommendations

Office of Surface Mining Reclamation and Enforcement

C-IN-OSM-0005-2005	    Management Issues Identified During the Audit of the Office of Surface
                       Mining Reclamation and Enforcement’s Fiscal Years 2004 and 2003 Financial
                       Statements (2/11/05); 1 Recommendation

Contracts and Grants
Bureau of Indian Affairs

1994-E-0784	           Audit of Costs Incurred by Diversified Business Technologies Corporation
                       Under Bureau of Indian Affairs Contract No. CBM000047 (6/10/94);
                       1 Recommendation; $825,170 Unresolved

1994-E-0919	           Audit of Costs Incurred by Diversified Business Technologies Corporation
                       Under Contract No. CBM000174 (6/30/94); 1 Recommendation;
                       $247,414 Unresolved

Bureau of Land Management

C-CX-BLM-0044-2003	    Costs Claimed by Sletten Construction of Wyoming, Inc., Under Contract
                       No. NDC000037 to Build the National Historic Trails Interpretive
                       Center, Bureau of Land Management (5/19/04); 1 Recommendation; $256,526
                       Unresolved

National Park Service

2000-E-0289	           JCM Control Systems, Inc., Costs Billed From January 1, 1997, Through
                       July 16, 1999, Under National Park Service Contract No. 1443CX300094906
                       (3/24/00); 1 Recommendation; $83,125 Unresolved

                      Semiannual Report to the Congress - April 1, 2005 - September 30, 2005       35
            Appendix Six


     2000-E-0607	                Costs Billed By Harrison & Palmer, Inc., From April 1, 1996, Through
                                 June 23, 1999, Under National Park Service Contract No. 1443CX300094906
                                 (8/8/00); 1 Recommendation; $52,703 Unresolved

     2000-E-0706	                Audit of Costs Billed by Southern Insulation, Inc., From November 21,
                                 1994, Through June 1, 1999, Under National Park Service Contract No.
                                 1443CX300094906 (9/29/00); 1 Recommendation; $86,262 Unresolved

     2001-E-0035	                Audit of Costs Billed by Callas Contractors, Inc., From
                                 January 1, 1997, Through June 1, 1999, Under National Park Service Contract
                                 No. 1443CX300094906 (11/7/00); 1 Recommendation; $16,425 Unresolved

     2001-E-0036	                Audit of Costs Billed by Capitol Mechanical Contractors, Inc., From
                                 January 1, 1997, Through June 1, 1999, Under National Park Service Contract
                                 No. 1443CX300094906 (11/7/00); 1 Recommendation; $98,194 Unresolved

     2001-E-0244	                Audit of Costs Billed by E.M.S. Consultants, Inc., From May 1, 1996,
                                 Through June 1, 1999, Under National Park Service Contract No.
                                 1443CX300094906 (2/27/01); 1 Recommendation; $327,330 Unresolved

     2001-E-0336	                Audit of Costs Billed By JCM Control Systems, Inc., From
                                 January 1, 1994, Through July 16, 1999, Under National Park Service
                                 Contract No. 1443CX300094906 (4/23/01); 1 Recommendation;
                                 $109,865 Unresolved

     2002-E-0002	                Audit of Amounts Billed by the Community Central Energy Corporation From
                                 October 1, 1993, Through September 30, 2000, Under National Park Service
                                 Contract No. CX-4000-0-0023 (12/19/01); 1 Recommendation; $779,274 Un-
                                 resolved

     C-CX-NPS-0027-2004	         Costs Claimed by Remediation Constructors, Inc., to Construct an Access
                                 Road and Parking Area at Sequoia Kings National Park in California,
                                 Contract No. 1443C8000010903 (7/8/04); 2 Recommendations; $348,792
                                 Unresolved

     C-CX-NPS-0039-2004	         Costs Claimed by The Ryan Company, Inc., Under the Horizontal Directional
                                 Drilling Portion of National Park Service Contract No. 1443C4500000906
                                 (2/9/05); 1 Recommendation; $3,427,887 Unresolved

     U.S Fish and Wildlife Service

     2003-E-0022	                Costs Claimed by the State of Missouri, Department of Conservation, Under
                                 Federal Aid Grants From the U.S. Fish and Wildlife Service From July 1,
                                 1997, Through June 30, 1999 (6/11/03); 2 Recommendations

     R-GR-FWS-0025-2003	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                                 State of New York, Department of Environmental Conservation, Division of
                                 Fish, Wildlife and Marine Resources, From April 1, 2000, Through
                                 March 31, 2002 (5/6/04); 8 Recommendations; $1,649,120 Unresolved




36   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                                                                             Appendix Six


R-GR-FWS-0010-2004	    U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                       State of New Jersey, Department of Environmental Protection, Division of
                       Fish and Wildlife, From July 1, 2001, Through June 30, 2003 (3/8/05);
                       21 Recommendations; $824,325 Unresolved

R-GR-FWS-0004-2004	    U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                       the State of North Carolina, Wildlife Resources Commission, From
                       July 1, 2001, Through June 30, 2003 (3/31/05); 8 Recommendations;
                       $3,753,535 Unresolved




                      Semiannual Report to the Congress - April 1, 2005 - September 30, 2005          37
           Appendix Seven


     Summary of Internal Audit and Evaluation Reports
     Over 6 Months Old Pending Corrective Action at
     September 30, 2005
     This is a listing of internal audit and evaluation reports over 6 months old with management decisions for
     which corrective action has not been completed. It provides report number, title, issue date, and the number of
     recommendations without final corrective action. These audits and evaluations continue to be monitored by the
     Focus Leader for Management Control and Audit Follow-up, Assistant Secretary for Policy, Management and
     Budget, for completion of corrective action.

     Bureau of Indian Affairs

     2003-I-0055	                    Evaluation of the Bureau of Indian Affairs Process to Approve Tribal Gaming
                                     Revenue Allocation Plans (6/11/03); 3 Recommendations

     E-IN-BIA-0059-2004	             Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial State-
                                     ments for Fiscal Years 2004 and 2003 (12/29/04); 22 Recommendations

     E-IN-BIA-0004-2005	             Management Issues Identified During the Audit of the Bureau of Indian
                                     Affairs’ Fiscal Years 2004 and 2003 Financial Statements (2/28/05);
                                     36 Recommendations

     Bureau of Land Management

     1992-I-0828	                    Onshore Geophysical Exploration Fees (5/26/92); 2 Recommendations

     1995-I-0379	                    Follow-up of Recommendations Relating to Bureau of Land Management
                                     User Charges for Mineral Related Document Processing (1/23/95);
                                     2 Recommendations

     1995-I-0747	                    Right of Way Grants, Bureau of Land Management (3/31/95);
                                     6 Recommendations

     1997-I-1300	                    Issuance of Mineral Patents, Bureau of Land Management and the Office of
                                     the Solicitor (9/30/97); 1 Recommendation

     1999-I-0808	                    Cultural Resource Management, Bureau of Land Management (9/30/97);
                                     2 Recommendations

     C-IN-BLM-0076-2003	             Independent Auditors’ Report on the Bureau of Land Management’s
                                     Financial Statements for Fiscal Years 2003 and 2002 (12/10/03);
                                     11 Recommendations

     C-IN-BLM-0021-2004	             Management Issues Identified During the Audit of the Bureau of Land
                                     Management’s Fiscal Year 2002 Financial Statements (12/31/03);
                                     2 Recommendations

     W-IN-BLM-0009-2003	             Audit of Oil and Gas Permitting Process, Bureau of Land Management
                                     (2/13/04); 4 Recommendations


38   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                                                                            Appendix Seven


C-IN-BLM-0062-2004	    Independent Auditors’ Report on the Bureau of Land Management’s Financial
                       Statements for Fiscal Years 2004 and 2003 (1/12/05); 6 Recommendations

C-IN-BLM-0002-2005	    Management Issues Identified During the Audit of the Bureau of Land
                       Management’s Fiscal Years 2004 and 2003 Financial Statements (2/10/05);
                       6 Recommendations	

Bureau of Reclamation

C-IN-BOR-0063-2004	    Independent Auditors’ Report on the Bureau of Reclamation’s Financial
                       Statement for Fiscal Years 2004 and 2003 (1/31/05); 2 Recommendations

C-IN-BOR-0003-2005	    Management Issues Identified During the Audit of the Bureau of Reclama-
                       tion’s Fiscal Years 2004 and 2003 Financial Statements (2/11/05);
                       4 Recommendations

Minerals Management Service

E-IN-MMS-0066-2003	    Independent Auditors’ Report on the Minerals Management Service’s
                       Financial Statements for Fiscal Years 2003 and 2002 (12/9/03);
                       5 Recommendations

E-IN-MMS-0055-2004	    Independent Auditors’ Report on the Minerals Management Service’s
                       Financial Statements for Fiscal Years 2004 and 2003 (2/3/05);
                       18 Recommendations

E-IN-MMS-0006-2005	    Management Issues Identified During the Audit of the Minerals Management
                       Service’s Fiscal Years 2004 and 2003 Financial Statements (2/3/05);
                       10 Recommendations

Multi-Office Audits

2000-I-0300	           Supporting Documentation for Operators Participating In the Stripper Oil Well
                       Property Royalty Rate Reduction Program, Bureau of Land Management and
                       Minerals Management Service (3/27/00); 1 Recommendation

X-IN-MOA-0080-2003	    Independent Auditors’ Report on the U.S. Department of the Interior’s Fiscal
                       Year 2003 Annual Report on Performance and Accountability (11/28/03);
                       39 Recommendations

C-IN-MOA-0042-2003	    Fleet Management Operations, U.S. Department of the Interior (2/9/04);
                       6 Recommendations

X-IN-MOA-0043-2004	    Management Issues Identified During the Audit of the Department of the
                       Interior’s Fiscal Year 2003 Financial Statements (2/12/04);
                       19 Recommendations

C-EV-MOA-0094-2003	    Department of the Interior Contracting for Temporary and Critical Staffing
                       Needs (9/30/04); 5 Recommendations




                      Semiannual Report to the Congress - April 1, 2005 - September 30, 2005           39
           Appendix Seven


     X-IN-MOA-0054-2004	         Independent Auditors’ Report on the Fiscal Year 2004 Annual Report on
                                 Performance and Accountability of the U.S. Department of the Interior
                                 (11/15/04); 66 Recommendations

     X-IN-MOA-0004-2005	         Management Issues Identified During the Audit of the Department of the
                                 Interior’s Fiscal Years 2004 and 2003 Financial Statements (3/14/05);
                                 1 Recommendation

     National Park Service

     1998-I-0406	                Follow-up of Recommendations Concerning Utility Rates Imposed by the
                                 National Park Service (4/15/98); 5 Recommendations

     2002-I-0045	                Recreational Fee Demonstration Program – National Park Service and Bureau
                                 of Land Management (8/19/02); 4 Recommendations

     2003-I-0013	                Yosemite National Park’s Museum Collection, National Park Service
                                 (3/31/03); 2 Recommendations

     E-IN-NPS-0067-2003	         Independent Auditors’ Report on the National Park Service’s Financial State-
                                 ments for Fiscal Years 2003 and 2002 (12/22/03); 11 Recommendations

     E-IN-NPS-0037-2004	         Management Issues Identified During the Audit of the National Park Service’s
                                 Fiscal Year 2003 Financial Statements (1/7/04); 15 Recommendations

     A-IN-NPS-0074-2003	         Improvements Needed In Managing Information Technology System Security,
                                 National Park Service (3/29/04); 12 Recommendations

     E-IN-NPS-0056-2004	         Independent Auditors’ Report on the National Park Service’s Financial State-
                                 ments for Fiscal Years 2004 and 2003 (12/10/04); 26 Recommendations

     E-IN-NPS-0007-2005	         Management Issues Identified During the Audit of the National Park
                                 Service’s Fiscal Years 2004 and 2003 Financial Statements (1/5/05);
                                 30 Recommendations

     C-IN-NPS-0013-2004	         The National Park Service’s Recording of Facility Maintenance Expenditures
                                 (1/26/05); 7 Recommendations

     Office of the Secretary

     2003-I-0056	                Evaluation Report on the Department of the Interior Working Capital Fund
                                 (6/16/03); 2 Recommendations

     E-IN-OSS-0058-2004	         Independent Auditors’ Report on the Departmental Offices’ Financial State-
                                 ments for Fiscal Years 2004 and 2003 (12/6/04); 18 Recommendations

     E-IN-DMO-0068-2003	         Independent Auditors’ Report on the Departmental Offices’ Financial State-
                                 ments for Fiscal Years 2003 and 2002 (12/19/03); 18 Recommendations




40   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                                                                             Appendix Seven


E-IN-DMO-0034-2004	      Management Issues Identified During the Audit of the Departmental Offices’
                         Fiscal Year 2003 Financial Statements (1/21/04); 7 Recommendations

E-IN-OSS-0008-2005	      Management Issues Identified During the Audit of Departmental Offices’
                         Fiscal Years 2004 and 2003 Financial Statements (2/24/05);
                         30 Recommendations 	

Office of the Special Trustee for American Indians

1997-I-1169	             Judgment Funds Awarded to the Papago Tribe of Arizona (9/15/97);
                         2 Recommendations

1997-I-1167	             Judgment Funds Awarded to the Turtle Mountain Band of Chippewa Indians
                         (9/22/97); 1 Recommendation

1997-I-1168	             Judgment Funds Awarded to the Navajo Nation (9/22/97);
                         1 Recommendation

2002-I-27	               Independent Auditors’ Report on the Office of Special Trustee for American
                         Indians’ Tribal and Other Trust Funds and Individual Indian Monies Trust
                         Funds Financial Statements for Fiscal Years 2001 and 2000 Managed by the
                         Office of Trust Funds Management (4/25/02); 3 Recommendations

Q-IN-OST-0075-2003	      Independent Auditors’ Report on the Tribal and Other Trust Funds and
                         Individual Indian Monies Trust Funds Financial Statements for Fiscal Years
                         2003 and 2002 Managed by the Office of the Special Trustee for American
                         Indians (12/9/03); 3 Recommendations

Q-IN-OST-0025-2004	      Management Issues Identified During the Audit of the Office of the
                         Special Trustee for American Indians’ Fiscal Year 2003 Financial Statements
                         (12/22/03); 3 Recommendations

Q-IN-OST-0066-2004	      Independent Auditors’ Report on the Tribal and Other Trust Funds and
                         Individual Indian Trust Funds Financial Statements for Fiscal Years 2004
                         and 2003 Managed by the Office of the Special Trustee for American Indians
                         (11/29/04); 8 Recommendations

Q-IN-OST-0004-2005	      Management Issues Identified During the Audit of the Office of the
                         Special Trustee for American Indians’ Fiscal Year 2004 Financial Statements
                         (1/10/05); 4 Recommendations

Office of Surface Mining Reclamation and Enforcement

C-IN-OSM-0024-2004	      Management Issues Identified During the Audit of the Office of Surface
                         Mining Reclamation and Enforcement’s Fiscal Year 2003 Financial Statements
                         (12/30/03); 3 Recommendations

S-IN-OSM-0087-2003-D	    Evaluation Report on State Operated Coal Regulatory Programs (10/27/04);
                         2 Recommendations




                        Semiannual Report to the Congress - April 1, 2005 - September 30, 2005         41
           Appendix Seven


     C-IN-OSM-0005-2005	         Management Issues Identified During the Audit of the Office of Surface
                                 Mining Reclamation and Enforcement’s Fiscal Years 2004 and 2003 Financial
                                 Statements (2/11/05); 3 Recommendations

     U.S. Fish and Wildlife Service

     1997-I-1305	                Automated Law Enforcement System, U.S. Fish and Wildlife Service
                                 (9/30/97); 2 Recommendations

     2000-I-0050	                Miscellaneous Receipts, U.S. Fish and Wildlife Service (11/9/99);
                                 4 Recommendations

     C-IN-FWS-0078-2003	         Independent Auditors’ Report on the U.S. Fish and Wildlife Service’s
                                 Financial Statements for Fiscal Years 2003 and 2002 (12/22/03);
                                 8 Recommendations

     C-IN-FWS-0023-2004	         Management Issues Identified During the Audit of the U.S. Fish and
                                 Wildlife Service’s Fiscal Year 2003 Financial Statements (12/23/03);
                                 1 Recommendation

     C-IN-FWS-0064-2004	         Independent Auditors’ Report on the U.S. Fish and Wildlife Service’s
                                 Financial Statements for Fiscal Years 2004 and 2003 (2/14/05);
                                 5 Recommendations

     U.S. Geological Survey

     E-IN-GSV-0057-2004	         Independent Auditors’ Report on the U.S. Geological Survey’s Financial
                                 Statements for Fiscal Year 2004 (11/24/04); 7 Recommendations

     E-IN-GSV-0005-2005	         Management Issues Identified During the Audit of the U.S. Geological
                                 Survey’s Fiscal Year 2004 and 2003 Financial Statements (3/21/05);
                                 35 Recommendations




42   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                                                                                         Appendix Eight


Summary of Insular Area Reports With Open
Recommendations Over 6 Months Old
Note: These Insular Area reports contain recommendations made specifically to Insular Area governors and
other Insular Area officials, who do not report to the Secretary and are not subject to the policy, guidance, and
administrative oversight established by the Assistant Secretary for Policy, Management and Budget.

INTERNAL AUDITS
Guam

2002-I-0016	           Bond Services, Trust Fund Activities, Guam Economic Development Authority,
                       Government of Guam (02/28/02); 4 Recommendations; $68,018,988

U.S. Virgin Islands

1993-I-0363	           Inmate Care, Rehabilitation and Safety, Bureau of Corrections, Government of the
                       Virgin Islands (12/31/1992); 1 Recommendation

1997-I-0040	           Division of Agriculture, Department of Economic Development and Agriculture,
                       Government of the Virgin Islands (10/21/96); 1 Recommendation

1998-I-0468	           Follow-up of Recommendations Relating to the Bureau of Corrections, Department
                       of Justice, Government of the Virgin Islands (05/29/98); 1 Recommendation

1999-I-0365	           Follow-up of Recommendations Relating to Personnel Management Practices,
                       Division of Personnel, Government of the Virgin Islands (03/26/99);
                       1 Recommendation; $8,300,000

2001-I-0107	           Administrative Functions, Legislature of the Virgin Islands, Government of the Virgin
                       Islands (12/29/00); 8 Recommendations; $1,320,293

2002-I-0001	           Virgin Islands Fire Service, Government of the Virgin Islands (10/30/01);
                       2 Recommendations; $2,014,994

2002-I-0009	           Virgin Islands Housing Finance Authority, Government of the Virgin Islands (12/31/01);
                       1 Recommendation

2002-I-0010	           Administrative Functions, Virgin Islands Police Department, Government of the Virgin
                       Islands (02/13/02); 5 Recommendations; $2,592,873

2002-I-0042	           Federal Highway Grants, Department of Public Works, Government of the Virgin
                       Islands (08/16/02); 5 Recommendations; $462,747

2002-I-0046	           Professional Service Contracts, Government of the Virgin Islands (09/30/02);
                       1 Recommendation; $1,019,791

2003-I-0002	           Public Finance Authority, Government of the Virgin Islands (11/22/02);
                       9 Recommendations; $30,524,687


                               Semiannual Report to the Congress - April 1, 2005 - September 30, 2005               43
           Appendix Eight


     2003-I-0003	        Compliance With the Memorandum of Understanding Between the Governor of the
                         Virgin Islands and the Secretary of the Interior (01/06/03); 6 Recommendations

     2003-I-0067	        Emergency Service Surcharge Collections by Innovative Telephone Corporation on Be-
                         half of the Government of the Virgin Islands (09/26/03); 1 Recommendation; $256,380

     V-IN-VIS-	          Procurement Activities Virgin Islands Port Authority, Government of the Virgin Islands
     0001-2004	          (03/28/05); 10 Recommendations; $852,013




44   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                                                                                Appendix Nine


List of Reports Issued on Information Security
NSM-EV-BLM-0020-2005	    Penetration Testing, External Penetration Testing of the Bureau of Land
                         Management (04/06/05)

NSM-EV-OSS-0025-	        Penetration Testing, External Penetration Testing of the
2005-NBC	                National Business Center (07/13/05)

NSM-EV-MMS-0021-2005	    Penetration Testing, External Penetration Testing of the Minerals Management
                         Service (08/05/05)

NSM-EV-OSM-0017-2005	    Penetration Testing, External Penetration Testing of the Office of Surface
                         Mining Reclamation and Enforcement (09/06/05)

NSM-EV-FWS-0022-2005	    Penetration Testing, External Penetration Testing of the U.S. Fish and Wildlife
                         Service (09/06/05)

NSM-EV-MOI-0003-2005	    Information Security Assessment: Central Valley Operations, Sacramento,
                         California, National Critical Infrastructure Information Systems, Bureau of
                         Reclamation (09/06/05)

NSM-EV-MOI-0003-2005	    Information Security Assessment: Hoover Dam, National Critical
                         Infrastructure Information Systems, Bureau of Reclamation,
                         (09/06/05)

NSM-EV-MOI-0003-2005	    Information Security Assessment: Grand Coulee Dam, National Critical
                         Infrastructure Information Systems, Bureau of Reclamation,
                         (09/06/05)

NSM-EV-OSS-0026-2005	    National Business Center Penetration Testing, External Penetration Testing of 	
                 			     the National Business Center (09/06/05)

NSM-EV-NPS-0023-2005	    Penetration Testing, External Penetration Testing of the National Park
                 			     Service (09/06/05)




                        Semiannual Report to the Congress - April 1, 2005 - September 30, 2005             45
               Appendix Ten


     Cross References to the Inspector General Act
                                                                                                    Page

     Section 4(a)(2)        Review of Legislation and Regulations                                    N/A

     Section 5(a)(1)        Significant Problems, Abuses, and Deficiencies                           1-21

     Section 5(a)(2)        Recommendations for Corrective Action With Respect to Significant        1-21
                            Problems, Abuses, and Deficiencies

     Section 5(a)(3)        Significant Recommendations From Agency’s Previous Reports on           38-42
                            Which Corrective Action Has Not Been Completed

     Section 5(a)(4)        Matters Referred to Prosecutive Authorities and Resulting Convictions      v

     Section 5(a)(5)        Matters Reported to the Head of the Agency                               N/A

     Section 5(a)(6)        List of Audit Reports Issued During the Reporting Period                23-30

     Section 5(a)(7)        Summary of Significant Reports                                           1-21

     Section 5(a)(8)        Statistical Table – Questioned Costs                                      31

     Section 5(a)(9)        Statistical Table – Recommendations That Funds Be Put to Better Use       32

     Section 5(a)(10)       Summary of Audit Reports Issued Before the Commencement of the          34-37
                            Reporting Period for Which No Management Decision Has Been Made

     Section 5(a)(11)       Significant Revised Management Decisions Made During the                 N/A
                            Reporting Period

     Section 5(a)(12)       Significant Management Decisions With Which the Inspector General        N/A
                            Is in Disagreement

     Section 5(a)(13)       Information Described Under Section 05(b) of the Federal Financial        45
                            Management Improvement Act of 1996




     N/A - Not Applicable this Reporting Period




46   Semiannual Report to the Congress - April 1, 2005 - September 30, 2005
                                                                         General Information


By Mail
U.S. Department of the Interior
Office of Inspector General
1849 C St. NW
Mail Stop 5341, MIB
Washington, DC 20240

By Phone
202.208.4618




By Internet
www.oig.doi.gov




By Fax
202.208.4998




                           Semiannual Report to the Congress - April 1, 2005 - September 30, 2005   47
Report Waste, Fraud, Abuse,
and Mismanagement
Waste, fraud, abuse, and mismanagement in government
concern everyone: Office of Inspector General staff,
departmental employees, and the general public. We actively
solicit allegations of any inefficient and wasteful practices,
fraud, and abuse related to departmental or Insular Area
programs and operations. You can report
allegations to us in several ways.

                     U.S. Department of the Interior
                            Office of Inspector General
                                         1849 C St. NW
                                    Mail Stop 5341 MIB
                              Washington, D.C. 20240

                  OIG Hotline: 800-424-5081 (toll free)
                       202-208-5300 (DC, metro area)

                                      Fax: 202-208-6081

                                   www.oig.doi.gov
